        Smithsonian Institution 	                                             Memo

        Office ofthe Inspector General




  Date July 26, 2013

    To 	 France C6rdova, Chair, Board of Regents

   cc 	 John W. Mccarter, Chair, Audit & Review Committee, Board of Regents 

        Albert Horvath, Under Secretary for Finance and Administration/Chief 

         Financial Officer
        John K. Lapiana, Deputy Under Secretary for Finance and Administration
        Patricia Bartlett, Chief of Staff, Office of the Secretary
        Judith Leonard, General Counsel

  From Scott S. Dahl, Inspector General   ~
Subject Annual Audit of Travel Expenses of the Board of Regents for Fiscal Year 2012,
        (Audit Number A-13-07)


        We have completed our Annual Audit of Travel Expenses of the Board of
        Regents for fiscal year (FY) 2012. Our objective was to determine whether
        the travel expenses for those Regents who seek reimbursement for expenses
        associated with attending Board meetings comply with laws and regulations,
        and Smithsonian procedures. We also assessed the adequacy of the
        Smithsonian's procedures governing travel expense reimbursements for the
        Board of Regents. Based upon our audit of Regents' travel for fiscal year
        2012, we determined that the Regents' travel reimbursements complied with
        laws and regulations, as well as Smithsonian procedures. The report is
        attached.




        MRC 524
        PO Box 37012
        Washington DC 20013-7012
        202.633.7050 Telephone
        202.633.7079 Fax
                               INTRODUCTION 


The statute that created the Smithsonian allows each member of the Board
of Regents to be reimbursed for necessary travel and other actual expenses
to attend Board and committee meetings and tasks the Board's Executive
Committee with auditing these expenditures. In 2007, the Executive
Committee requested that the Office of the Inspector General conduct annual
audits of the Regents' travel expenses.

                                BACKGROUND

Regents' Travel Review Process

Regents generally attend four Board meetings a year, as well as numerous
committee meetings and occasional special events. Regents who live outside
the Washington D.C. area may travel to attend meetings and events. In most
cases, these Regents' employers initially pay for the travel and then seek
reimbursement from the Smithsonian for the Regents' lodging,
transportation, meals and related expenses.

At the beginning of each fiscal year, the Office of the Regents creates
purchase orders for those Regents expected to travel during the year. After
the Regents travel, their employers generally submit travel reimbursement
requests and supporting documentation to the Smithsonian's Office of the
Regents.

The Special Assistant within the Office of the Regents reviews the
reimbursement requests to determine if the costs are accurate, supported by
documentation, and allowable. The Special Assistant forwards the request to
the Special Assistant to the Secretary who also reviews the request and
supporting documentation. The Special Assistant to the Secretary approves
the request and forwards it to the Office of the Comptroller's Accounts
Payable Division for payment.

The Accounts Payable staff reviews the summary memo signed by the
Special Assistant to the Secretary with the detail attached. The summary
memo states what meeting the Regent attended; describes the charges,
including amounts; and states where to send the reimbursement. The staff
inputs the Invoice into the Smithsonian's accounting system, and the system
creates a voucher. The accounting system then generates the payment to the
Regent's employer by an electronic fund transfer.

OIG Annual Review

To identify the total population of Regent travelers during the fiscal year, we
reviewed minutes of Board of Regents and Committee meetings. We also
obtained the general ledger from the Office of the Regents which listed all


                                       2

reimbursements the Smithsonian made for Regents' travel expenses. We
Independently examined these records and the supporting source documents.

To evaluate the Smithsonian's procedures for reimbursement of Regents'
travel expenses, we reviewed the Board of Regents Charter and Bylaws; the
Office of the Regents' Reimbursement of Regents Meeting Expenses Policy;
and 20 United States Code Section 44, which addresses the Smithsonian
Board of Regents.

We conducted this audit in Washington, D.C., from April 2013 through May
2013, In accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
we obtained provides a reasonable basis for our conclusions based on our
audit objectives.

                             RESULTS OF AUDIT

During the audit period, October 1, 2011 through September 30, 2012, only
3 of the 17 Regents requested reimbursement for travel expenses for 22
trips incurred while attending Board, Committee, or special events, for a tota l
of $19,526.

We reviewed 100 percent of the reimbursement claims for the 22 trips taken
by the Regents and the supporting documentation. We verified the accuracy
of the claims and confirmed that all claims were properly approved.

As a result, we found that the travel expenses for the Regents who sought
reimbursement for the cost of attending Board of Regents and Committee
meetings and occasional speclal events complied with laws, regulations, and
Smithsonian procedures. We did not Identify any trips for wh ich the
Smithsonian reimbursed the Regents for first-class air or rail fares, and all
the Regents seeking reimbursement kept their meals and miscellaneous
expenses within required limits. We also concluded that the Smithsonian's
procedures governing Regents' reimbursements were adequate.

                         MANAGEMENT RESPONSE

Management concurred with the report results and chose not to provide a
written response.




                                       3

